                                 SOCIAL SECURITY
MEMORANDUM
Date:      October 23, 2002                                                Refer To:

To:        Michael W. Grochowski
           Regional Commissioner

From:      Assistant Inspector General
           for Audit

Subject:   Audit of the Administrative Costs Claimed by the Kansas Disability Determination
           Services (A-07-02-22003)


           The attached final report presents the results of our audit. Our objectives were to
           evaluate the Kansas Disability Determination Services’ internal controls over the
           accounting and reporting of administrative costs, determine whether costs claimed
           were allowable and properly allocated and funds were properly drawn, and assess the
           electronic data processing general controls environment.

           Please comment within 60 days from the date of this memorandum on corrective action
           taken or planned on each recommendation. If you wish to discuss the final report,
           please call me at (410) 965-9700.




                                                               Steven L. Schaeffer

           Attachment

           cc:
           Connie Wold
           Cheryl Ritter
           Lenore Carlson
           Anthony DiNoto
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



 AUDIT OF THE ADMINISTRATIVE
    COSTS CLAIMED BY THE
      KANSAS DISABILITY
   DETERMINATION SERVICES

  October 2002   A-07-02-22003



 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       Executive Summary
OBJECTIVES
The objectives of our audit were to (1) evaluate the Kansas Disability Determination
Services’ (KS-DDS) internal controls over the accounting and reporting of administrative
costs, (2) determine whether costs claimed were allowable and properly allocated and
funds were properly drawn, and (3) assess the electronic data processing general
controls environment.

BACKGROUND
Disability determinations under the Social Security Administration’s (SSA) Disability
Insurance and Supplemental Security Income programs are performed by Disability
Determination Services (DDS) in each State according to Federal regulations. In
carrying out its obligation, each DDS is responsible for determining claimants’
disabilities and ensuring that adequate evidence is available to support its
determinations. To assist in making proper disability determinations, each DDS is
authorized to purchase consultative medical examinations to supplement evidence
obtained from the claimants’ physicians or other treating sources. SSA pays the DDS
for 100 percent of allowable expenditures.

RESULTS OF REVIEW
Our review of administrative costs claimed by KS-DDS disclosed that obligations
reported to SSA were overstated by $5,674,737. The overstated obligations were
caused by (1) incorrect indirect cost allocations, (2) excessive consultative examination
(CE) payments, (3) inappropriate non-SSA work cost charges, and (4) inaccurate other
nonpersonnel costs. In addition, we identified $1,106,542 in costs that KS-DDS claimed
for reimbursement in the incorrect fiscal year.

We estimate that SSA will realize about $6.1 million in savings over the next 5 years as
a result of resolving the indirect cost findings disclosed in this report. Our review also
disclosed that internal control improvements were needed in the areas of cash
management, segregation of duties, and computer access.

RECOMMENDATIONS AND AGENCY COMMENTS
We recommend that SSA recover the $5,674,737 in unallowable costs resulting from
the overstated obligations and instruct KS-DDS to improve internal controls over the
reporting of fiscal year payments, cash management, segregation of duties, and
computer access. In response to our draft report, SSA agreed with most of our
recommendations. However, SSA did not fully agree with our recommendations related
to incorrect reporting of fiscal year expenditures and excess CE costs. See Appendix E
for the full text of SSA’s comments to our report, including the KS-DDS’ response.

Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)           i
                                                             Table of Contents
                                                                                                                     Page

INTRODUCTION ......................................................................................................1

RESULTS OF REVIEW ...........................................................................................4

Indirect Costs ............................................................................................................4

Incorrect Fiscal Year Payments ................................................................................8

Consultative Examination Costs................................................................................9

Non-SSA Work..........................................................................................................10

All Other Nonpersonnel Costs...................................................................................11

Cash Management ....................................................................................................12

Segregation of Duties................................................................................................13

Access Controls ........................................................................................................14

CONCLUSIONS AND RECOMMENDATIONS.........................................................16

APPENDICES

APPENDIX A – Sampling Methodology

APPENDIX B – Kansas Disability Determination Services Reported Versus Allowed
             Obligations

APPENDIX C – Kansas Disability Determination Services Indirect Costs

APPENDIX D – Kansas Disability Determination Services Consultative Examination
             Costs

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments




Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)
                                                                   Acronyms
Act                          Social Security Act
ASAP                         Automated Standard Application for Payments
CAP                          Cost Allocation Plan
CE                           Consultative Examination
CFR                          Code of Federal Regulations
CMIA                         Cash Management Improvement Act
DDS                          Disability Determination Services
DI                           Disability Insurance
Form SSA-4513                State Agency Report of Obligations for SSA Disability
                             Programs
FTE                          Full-Time Equivalents
FY                           Fiscal Year
GAO                          General Accounting Office
HHS                          Department of Health and Human Services
IT                           Information Technology
IWS/LAN                      Intelligent Workstation/Local Area Network
KRS                          Kansas Rehabilitation Services
KS-DDS                       Kansas Disability Determination Services Administration
KS-SRS                       Kansas Department of Social and Rehabilitation Services
MOU                          Memorandum of Understanding
OMB                          Office of Management and Budget
POMS                         Program Operations Manual System
SSA                          Social Security Administration
SSH                          Systems Security Handbook
SSI                          Supplemental Security Income
Treasury                     Department of the Treasury




Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)
                                                                    Introduction
OBJECTIVES
The objectives of our audit were to (1) evaluate the Kansas Disability Determination
Services’ (KS-DDS) internal controls over the accounting and reporting of administrative
costs, (2) determine whether costs claimed were allowable and properly allocated and
funds were properly drawn, and (3) assess the electronic data processing general
controls environment.

BACKGROUND
The Disability Insurance (DI) program was established in 1954 under title II of the
Social Security Act (Act). The program provides a benefit to wage earners and their
families in the event the wage earner becomes disabled. The Supplemental Security
Income (SSI) program was created as a result of the Social Security Amendments of
1972 with an effective date of January 1, 1974. SSI (title XVI of the Act) provides a
nationally uniform program of income to financially needy individuals who are aged,
blind, and/or disabled.

The Social Security Administration (SSA) is primarily responsible for implementing
policies governing the development of disability claims under the DI and SSI programs.
Disability determinations under both DI and SSI are performed by Disability
Determination Services (DDS) in each State according to Federal regulations.1 In
carrying out its obligation, each DDS is responsible for determining claimants’
disabilities and ensuring that adequate evidence is available to support its
determinations. To assist in making proper disability determinations, each DDS is
authorized to purchase such consultative medical examinations as x-rays and
laboratory tests to supplement evidence obtained from the claimants’ physicians or
other treating sources.

SSA pays the DDS for 100 percent of allowable expenditures. Each year, SSA
approves a DDS budget. Once approved, the DDS withdraws Federal funds through
the Department of the Treasury’s (Treasury) Automated Standard Application for
Payments (ASAP) system. Cash drawn from the Treasury to pay for program
expenditures is to be drawn according to Federal regulations and in accordance with
intergovernmental agreements entered into by Treasury and the States under the
authority of the Cash Management Improvement Act (CMIA).2,3 At the end of each
fiscal quarter, each DDS submits to SSA a State Agency Report of Obligations for SSA


1
    42 USC § 421; 20 CFR part 404, subpart Q, and part 416, subpart J.
2
    31 C.F.R. Part 205.
3
    Pub. L. No. 101-453.


Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)         1
Disability Programs (Form SSA-4513) to account for program disbursements and
unliquidated obligations.

KS-DDS is a component of the Kansas Department of Social and Rehabilitation
Services (KS-SRS), Kansas Rehabilitation Services (KRS). Indirect costs are allocated
according to the KS-SRS Cost Allocation Plan, which is approved by Department of
Health and Human Services (HHS) on behalf of the Federal Government.

SCOPE AND METHODOLOGY
We reviewed the administrative costs KS-DDS reported on its Form SSA-4513 for
FYs 1998 through 2000. However, one of our findings (indirect costs) affected the costs
claimed in FYs 2001 and 2002. Therefore, we expanded the audit period to fully
develop this finding. For the periods reviewed, we obtained evidence to evaluate
recorded financial transactions in terms of their allowability under Office of Management
and Budget (OMB) Circular A-87, Cost Principles for State, Local and Indian Tribal
Governments, and appropriateness, as defined by SSA's Program Operations Manual
System (POMS).

We also:

·   Reviewed applicable Federal regulations, pertinent parts of the POMS, DI 39500,
    DDS Fiscal and Administrative Management, and other instructions pertaining to
    administrative costs incurred by KS-DDS and the draw down of SSA funds covered
    by the CMIA.

·   Reviewed work performed by Deloitte and Touche, Certified Public Accountants, as
    part of the Kansas single audit. Because of the limited scope of the single audit
    work performed at KS-DDS, we did not rely on the single audit work.

·   Interviewed staff at KS-DDS, KS-SRS, KRS, and SSA Region VII Center for
    Disability.

·   Reviewed State policies and procedures related to personnel, medical services, and
    all other nonpersonnel costs.

·   Reviewed the Memorandum of Understanding (MOU) between SSA and the
    KS-SRS for non-SSA work.

·   Evaluated and tested internal controls regarding accounting and financial reporting
    and cash management activities.

·   Reviewed the reconciliation of official State accounting records to the administrative
    costs reported by KS-DDS on the Form SSA-4513 for Fiscal Years (FY) 1998
    through 2000.



Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)            2
·   Examined the administrative expenditures (personnel, medical service, and all other
    nonpersonnel costs) incurred and claimed by KS-DDS for FYs 1998 through
    2000 on the Form SSA-4513. We used statistical sampling to select documents to
    test for support of the medical service and all other nonpersonnel costs (see
    Appendix A).

·   Examined the indirect costs claimed by KS-DDS for FYs 1998 through 2002
    (first 2 quarters) and the corresponding KS-SRS Cost Allocation Plans (CAP).

·   Compared the amount of SSA funds drawn for support of program operations to the
    allowable expenditures reported on the Form SSA-4513.

·   Discussed indirect costs issues with the HHS Division of Cost Allocation,
    Kansas City, Missouri.

We performed work in Topeka, Kansas, at the KS-DDS, KS-SRS, and KRS offices and
the SSA Regional Office in Kansas City, Missouri. We conducted field work from
October 2001 through May 2002. The audit was conducted in accordance with
generally accepted government auditing standards.




Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)        3
                                                   Results of Review
Our review of administrative costs claimed by KS-DDS disclosed that obligations
reported to SSA were overstated by $3,499,969 for the period October 1998 through
September 2000 because of (1) incorrect indirect cost allocations, (2) excessive
consultative examination (CE) payments, (3) inappropriate non-SSA work cost charges,
and (4) inaccurate other nonpersonnel costs. We also found $2,174,768 was
overstated during the period October 2000 through March 2002 because the DDS
continued to use incorrect indirect cost allocations. In addition, we identified payments
of $1,106,5424 reported on the Form SSA-4513 in the incorrect FY. Furthermore, funds
were not drawn in accordance with Federal regulations, duties were not segregated in
the timekeeping function, and access controls needed to be strengthened.

We estimate that SSA will realize about $6.1 million in savings over the next 5 years as
a result of resolving the indirect cost findings disclosed in this report.5 The total costs
claimed, recommended audit adjustments, and allowable obligations are presented in
Appendix B.

INDIRECT COSTS
For the period October 1997 through March 2002, KS-DDS claimed $4,923,606 in
unallowable indirect costs. The unallowable costs occurred because KS-SRS did not
allocate KRS Central Office and Administration Division costs to all benefiting
components. In addition, we were unable to determine whether $435,052 in information
technology (IT) costs were acceptable because KS-DDS did not allocate IT costs
according to the approved CAPs. A summary of the audit issues and cost adjustments
is presented in Appendix C.




4
  We also identified FY 2000 indirect costs of $47,291 that were claimed on the FY 1999 Form SSA-4513.
This cost was accounted for in the indirect costs section of this report so it is not included as part of this
finding.

5
  We estimate the annualized cost disallowance for FY 2002 to be significantly larger FY 2001, the last
complete year we reviewed. Therefore, we estimate that future yearly savings will be at least as much as
the unallowable costs identified for FY 2001. Based on a straight-line estimation technique, SSA will
realize $6.1 million ($1.22 million multiplied by 5 years) in savings for FYs 2003 through 2007.


Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)                              4
                                     FY                           Unallowable Indirect
                                                                         Costs
                                   1998                                        $896,907
                                   1999                                         887,422
                                   2000                                         964,509
                                   2001                                       1,227,645
                           2002 (Through March)                                 947,123
                                   Total                                     $4,923,606

Indirect costs are charged to KS-DDS based on the KS-SRS CAP. Annually, HHS
reviews, negotiates, and approves the KS-SRS CAP. For FY 2001, SSA’s Office of
Disability reported that KS-DDS had the second highest indirect cost rate in the Nation.

                     FY              KS-DDS INDIRECT             NATIONAL DDS AVERAGE
                                                     6            INDIRECT COSTS RATE
                                       COSTS RATE
                    2001                27.5 Percent                   12.2 Percent

KRS CENTRAL OFFICE COSTS

KRS has six divisions in Topeka, Kansas: (1) Rehabilitation Services Administration
Office, (2) Services for the Blind and Visually Impaired, (3) Commission for the Deaf and
Hard of Hearing, (4) Client Assistance Program, (5) Career Development Centers, and
(6) KS-DDS. KRS also has field offices in counties throughout Kansas that perform
rehabilitation services.

KRS’s Rehabilitation Services Administration Office (referred to as Central Office)
provides the following services: (1) policy review and oversight; (2) general
management assistance; (3) supervision of program administrators; (4) budgeting and
fiscal management and assistance; (5) contract development, review, and processing;
(6) position management review and processing; and (7) human resource management,
review and oversight. According to KS-SRS staff, these services are provided to the
five KRS operating divisions listed above.

Our audit disclosed that the allocation of KRS Central Office costs violated
OMB Circular A-87 because it excluded Full-Time Equivalents (FTE) of benefiting
divisions, specifically the Client Assistance Program and KRS field offices. According to
KS-SRS, the Client Assistance Program was excluded from the indirect cost allocation
because its budget would not support indirect cost charges. OMB Circular A-87 states
that costs should be treated consistently among the various Federal awards and
between Federal and non-Federal awards/activities. Therefore, the Client Assistance
Program should receive an allocation of the KRS Central Office costs.

According to KS-SRS staff, the KRS field offices were excluded from the indirect cost
allocation because the field offices did not receive the same level of services from the
KRS Central Office as the divisions that were allocated costs and did not report to the
6
    Indirect cost rates were calculated by dividing the DDS indirect costs by DDS personnel costs.


Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)                          5
KRS Central Office. We found that the KRS field offices should be included in the
allocation of KRS Central Office costs for the following reasons.

·   KRS field offices received services from the KRS Central Office, including policy
    review and oversight.

·   The KRS Central Office reported field office activities to the U.S. Department of
    Education, Rehabilitation Services Administration. To fulfill this reporting
    responsibility, the KRS Central Office must be involved in KRS field office activities.

·   KRS’ mission is to work with State residents with disabilities to achieve their goals
    for employment and independence. With the exception of KS-DDS, all KRS
    divisions, including the field offices, work together to achieve this mission. KRS’
    mission is further indication that the KRS Central Office provides services to the
    divisions achieving its mission, including the KRS field offices.

The FTE count KS-SRS used to allocate KRS Central Office costs resulted in KS-DDS
receiving an inequitable allocation of indirect costs. Specifically, the allocation
methodology violates OMB Circular A-87 because it does not allocate costs to the KRS
field offices and the Client Assistance Program even though both activities benefit from
the Central Office. OMB Circular A-87 states “…there needs to be a process whereby
central service costs can be identified and assigned to benefited activities on a
reasonable and consistent basis. The central service cost allocation plan provides that
process….”

We calculated the KRS Central Office costs chargeable to the KS-DDS based on the
inclusion of all divisions that received services from KRS Central Office, including the
Client Assistance Program and the KRS field offices. For consistency, we used
management FTEs7 within each division for our calculation. This calculation disclosed
that KS-DDS was allocated $4,302,318 in excessive costs for the period
October 1, 1997 through March 31, 2002.

KS-SRS ADMINISTRATION DIVISION

KS-SRS’ Administration Division provides leadership and support to KS-SRS. The
Administration Division consists of the following components: Office of the Secretary,
Human Resources, Legal Services, and Operations. KS-SRS allocates Administration
Division costs based on FTE count, time study, or expenditure. We identified an
inaccurate allocation of Administration Division costs related to State medical
institutions and could not express an opinion on the allocation of costs related to IT.



7
  KS-SRS sometimes allocated KRS Central Office costs based on the divisions’ management FTEs and
in other cases based on all FTEs in the division. For consistency, the costs should be allocated to all
divisions in the same manner. We used management FTEs to allocate the KRS Central Office costs.




Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)                        6
State Medical Institutions

The Administration Division costs include those related to executive services, human
resources, and budgeting. The KS-SRS CAP states that these costs should be
allocated based on FTEs. We found that KS-SRS allocated these costs to 4,022 of its
6,521 FTEs and excluded 2,499 FTEs assigned to the KS-SRS State medical
institutions (Kansas Neurological Institute, Larned State Hospital, Osawatomie State
Hospital, Parsons State Hospital, and Rainbow Mental Health Facility).

According to KS-SRS staff, Administration Division costs are not allocated to the State
medical institutions because the institutions do not receive the same level of service
from the Administration Division as the components that were allocated these costs.
However, we found that the Administration Division is directly involved in the activities of
the State medical institutions. For example, the Administration Division’s executive
services staff makes decisions regarding the operations of the institutions, such as
capital improvements, staffing, and salary levels. The human resources staff also
provides services to the State medical institutions to include staffing-related assistance.
Therefore, we concluded that the 2,499 FTEs assigned to the State medical institutions
should be included in the allocation of the Administration Division’s costs.

The exclusion of the State medical institutions’ FTEs when allocating the Administration
Division’s costs violates OMB Circular A-87 because it does not result in an equitable
allocation of costs to all benefiting activities. Furthermore, it does not treat the costs
consistently between the SSA disability programs and other benefiting components
within KS-SRS.

We recalculated the Administration Division’s costs that should have been charged to
the KS-DDS based on 6,521 KS-SRS FTEs. Based on this recalculation, KS-DDS was
allocated $621,288 in excessive costs from October 1, 1997 through March 31, 2002.

Information Technology

The IT unit within the Administration Division provides the following services to all
KS-SRS staff: computer support, data management and collection, programming,
telecommunication, network connections, and mainframe computer operations.

According to the approved CAP, IT costs are to be allocated based on a 100-percent
time study of IT activities. However, we found that KS-SRS allocated IT costs based on
a time study of some IT programmer staff. The programmer staff accounted for only
13 to 22 percent of the total IT staff during our audit period. A time study of programmer
staff may not provide an accurate accounting of IT staff activities.




Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)             7
KS-SRS violated OMB Circular A-87 because it did not allocate IT costs in accordance
with the approved CAP. We could not calculate the IT costs that should have been
allocated to KS-DDS because the 100-percent time study information did not exist.
Therefore, we cannot express an opinion on the acceptability of $435,052 in IT
expenses allocated to KS-DDS from October 1997 through March 2002.

INCORRECT FISCAL YEAR PAYMENTS
We identified payments of $1,106,5428 reported on the Form SSA-4513 in the wrong
FYs, although the costs were otherwise acceptable for reimbursement by SSA. The
incorrect reporting of FY payments occurred because KS-SRS (1) finalized the
Form SSA-4513 before all obligations were liquidated, (2) incorrectly allocated rental
space costs, and (3) did not always perform necessary manual adjustments.
Section 1502(a) of Title 31, United States Code, provides, in part, that “…the balance of
an appropriation or fund limited for obligation to a definite period is available only for
payment of expenses properly incurred during the period of availability…. However, the
appropriation or fund is not available for expenditure for a period beyond the period
otherwise authorized by law.”

Improperly shifting funds between FYs prevents SSA from accurately monitoring the
status of States’ expenditures and unexpended appropriations. The effect is to reduce
the Agency’s ability to manage the allocation and use of budgeted funds among States.

Premature Finalizing of the Form SSA-4513

KS-SRS finalized the Form SSA-4513 before all FY obligations had been liquidated.
When the obligations were liquidated, the payment was recorded as an expenditure in
the subsequent FY. Prematurely finalizing the Form SSA-4513 resulted in medical
costs of at least $41,542 being recorded in the wrong FY.

Contractual Payments

The lease agreement for the KS-DDS’ office space requires that 12 months of rent be
paid on July 1 of each year. In July 1998, the DDS made one annual payment to
prepay rent for the period July 1, 1998 through June 30, 1999. The DDS claimed these
costs on the Form SSA-4513 for FY 1998, although $303,173 was FY 1999 expenses
(rent for October 1998 through June 1999). The same condition existed in subsequent
periods, resulting in FY 2000 rent expenses of $308,598 being claimed for FY 1999,
and FY 2001 rent expenses of $307,789 being claimed for FY 2000. This condition will
continue throughout the period of the lease agreement and will result in an inaccurate
reporting of FY expenses on the Form SSA-4513 every FY.



8
  We identified FY 2000 indirect costs of $47,291 that were claimed on the FY 1999 Form SSA-4513.
This cost was accounted for in the indirect costs section of this report so it is not included as part of this
finding.


Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)                                8
KS-DDS enters into service agreements and purchases software licenses that cover a
1-year period. However, the period does not coincide with the FY, resulting in costs
being claimed for the incorrect FY, as follows.

                        Year Claimed      Correct Year    Costs
                            1998             1997         $1,099
                            1999             1998        $10,352
                            2000             2001        $76,245

Manual Adjustment

In some cases, a manual adjustment is necessary to report costs in the correct FY.
These manual adjustments were not always made, resulting in costs being claimed for
the incorrect FY, as follows.
                        Year Claimed      Correct Year    Costs
                            1998             1997        $41,404
                            1999             1998         $8,884
                            2000             1999         $7,456

CONSULTATIVE EXAMINATION COSTS
From October 1998 through September 2000, KS-DDS claimed $591,340 in
unallowable CE costs (see Appendix D). This occurred because KS-DDS reimbursed
certain hospitals, clinics, and individual physicians for CEs at rates of payment that
exceeded the highest rate paid by Federal (Medicare) or other agencies in the State
(Workers’ Compensation). According to 20 CFR §§ 404.1624 and 416.1024, “The rates
may not exceed the highest rate paid by Federal or other agencies in the State for the
same or similar type of service."

Most of the unallowable CE costs resulted from KS-DDS paying hospitals and clinics for
CEs at rates equal to the medical providers’ usual and customary charges, less
10 percent. KS-DDS considers the payment of usual and customary charges to
hospitals and clinics to be allowable since the policy was created by its parent agency,
KS-SRS. In determining whether KS-DDS complied with 20 CFR §§ 404.1624 and
416.1024, we consider KS-SRS and KS-DDS to be part of the same agency. Our
research of the Kansas statutes did not show the KS-DDS having separate authority
from KS-SRS.9 In fact, our review of various KS-SRS budget and organizational
documents show that KS-DDS is a subdivision of KS-SRS, not a separate agency.
Moreover, Federal or other State agencies do not use these rates. While KS-SRS does
pay at these rates for similar type services, it was unable to provide us with
documentation showing the extent to which these services were purchased. However,
we were informed that the volume of services purchased by KS-SRS was considerably
less than that of the KS-DDS. Regardless, where the DDS parent agency sets rates


9
    Kansas Statute Annotated § 39-708c.




Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)         9
higher than paid by Federal or other State agencies, we believe this violates the
regulations adopted by SSA and results in improperly inflated CE costs.

Payment of usual and customary charges less 10 percent to hospitals and clinics
continued after our audit period. Therefore, SSA should instruct KS-DDS to determine
the extent to which CE costs incurred after our audit period exceeded the highest
Federal or State agency rates allowable in the State of Kansas. The excessive
amounts identified by KS-DDS should be used to reduce CE obligations reported for
FYs 2001 and 2002.

NON-SSA WORK
SSA was charged $142,140 in unallowable costs for non-SSA work-related costs for the
period October 1997 through September 2000. This occurred because KS-SRS did not
calculate non-SSA work costs in accordance with the terms agreed upon by KS-SRS
and SSA in the MOU for non-SSA work.

                       Unallowable Non-SSA Work Costs Charged to SSA
                FY            Non-SSA Work     Non-SSA Work      Non-SSA Work
                                 Costs Per     Costs Credited    Costs Charged
                                   MOU             to SSA            to SSA
               1998              $127,415         $147,124         $(19,709)
               1999               162,714            90,039            72,675
               2000               115,796            26,622            89,174
               Total             $405,925         $263,785          $142,140

An MOU, dated August 1974 and signed by the Secretary of KS-SRS and the SSA
Regional Commissioner, outlines the arrangements for the non-SSA workload. The
non-SSA workload consists of disability determinations for State Medical Assistance
claims. The MOU states that KS-DDS will be given credit quarterly for the non-SSA
work determined on a cost per case basis. Case costs will be determined by dividing
the total obligations (personnel, medical, indirect costs, and all other nonpersonnel
costs) by the total Federal and non-Federal claims processed. The MOU includes a
statement to the effect that the assumption of the non-SSA program workload would not
interfere with the prompt and effective completion of SSA-related claims. The MOU was
to remain in effect until terminated by either party or revised by mutual consent of both
parties.

The method KS-SRS used to calculate non-SSA costs was not consistent with the
terms of the MOU, resulting in KS-SRS charging non-SSA work costs to SSA. KS-SRS
used the following method to calculate non-SSA costs during our audit period.10

·     For the period October 1997 through March 1999, KS-SRS recorded medical
      expenses for non-SSA work costs separately from the SSA medical expenses and

10
     This method was also used in FYs 2001 and 2002 to calculate non-SSA work costs.


Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)            10
    did not charge these costs to SSA. The KS-SRS also calculated the costs of
    non-SSA work based on a percentage of non-SSA medical expenses to total
    medical expenditures. This percentage was then applied to the KS-DDS’ personnel
    and all other non-personnel expenditures to arrive at the non-SSA work costs. The
    cost of the non-SSA work was then deducted from the expenditures reported to SSA
    for reimbursement.

    KS-SRS stated that indirect costs reported to SSA for reimbursement were also
    reduced using the aforementioned percentage. While we could confirm that SSA
    was given credit in the areas of medical and all other non-personnel costs for the
    non-SSA work, we could not identify a credit for indirect costs. Our reconciliation of
    indirect costs claimed to KS-SRS’ accounting records did not identify any reductions
    in the indirect costs reported to SSA for non-SSA work.

·   After March 1999, KS-SRS continued to record medical expenses for non-SSA work
    costs separately from the SSA medical expenses and did not charge these costs to
    SSA. However, KS-SRS no longer calculated a percentage to apply to KS-DDS’
    personnel and all other nonpersonnel expenditures to arrive at the non-SSA work
    costs. As previously discussed, our reconciliation of indirect costs claimed to
    KS-SRS’ accounting records did not identify any reductions in the indirect costs
    reported to SSA for non-SSA work.

ALL OTHER NONPERSONNEL COSTS
We identified $17,651 in unallowable costs in the all other non-personnel costs
categories of communications and rental costs. OMB Circular A-87 states “To be
allowable under Federal awards, costs must meet the following general criteria…be
necessary and reasonable for proper and efficient performance and administration of
Federal awards…be adequately documented."

Communication

Communication costs include cellular telephone and pager services, local and long
distance communication services paid directly to a commercial vendor, and
reimbursement to the State Division of Information Systems and Communications for
local and long distance telephone services and data communication services. We
identified unallowable communication costs of $15,134.

·   KS-DDS was charged $6,401, $4,049, and $1,541 during FYs 1998, 1999, and
    2000, respectively, for telephone service and data connects that were not located in
    its office space. This occurred because the State Division of Information Systems
    and Communications continued to charge KS-DDS the costs of telephone service
    and data connects that were located at KS-DDS’ previous office location (Docking
    State Office Building) after KS-DDS moved to new office space.




Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)           11
·   SSA reimbursed KS-DDS for $155 in personal cellular telephone charges in
    FY 2000. KS-DDS allows personal calls on State-owned cellular telephones, but the
    user is required to reimburse the KS-DDS for the costs of personal calls. KS-DDS
    has procedures in place to review cellular telephone bills to ensure that personal
    telephone calls are not charged to SSA. However, the procedures were not followed
    in this case.

·   In FYs 1998 and 1999, KS-DDS paid $19 and $439, respectively, for long distance
    telephone calls placed from telephones not located in the DDS. KS-DDS has
    procedures to review long distance charges to determine whether calls were placed
    from DDS telephones. These procedures identified calls that should not have been
    billed to the DDS. However, procedures are lacking to ensure that KS-DDS receives
    credit for the calls.

·   KS-DDS paid Federal, State and local Excise taxes and Federal taxes in FYs 1998
    and 2000 on telephone bills totaling $812 and $5, respectively. KS-DDS has
    procedures to review telephone bills and exclude the taxes but failed to identify the
    taxes in these cases.

·   Our sample identified late fees of $59 and $147 paid in FYs 1998 and 2000,
    respectively. DDS procedures were not sufficient to ensure that bills were paid
    timely to avoid late fees.

·   Documentation did not exist to support a $1,507 telephone bill for FY 1998. We
    could not determine why there was no documentation.

Office Utility Costs

In FY 1998, the DDS paid $2,517 in excessive utility costs. KS-DDS occupies
30 percent of the 102,167 square feet in office space covered by gas, electric, and
water meters. Therefore, KS-DDS is responsible for paying the lessor for 30 percent of
the gas, electric, and water. However, from September 1997 through February 1998,
KS-DDS paid approximately 37 percent of the utility costs because a portion of the
square footage covered by the meters was vacant. Thus, KS-DDS paid utility costs
allocated for office space it did not occupy.

CASH MANAGEMENT
Funds to cover State DDS expenditures are drawn from the ASAP system. For each
FY, State DDSs are assigned an Account Identification number in the ASAP system.
SSA is responsible for establishing, maintaining and funding DDS accounts in the ASAP
system to control the flow of funds to the State. Cash draws made from the Account
Identification number are to reimburse KS-DDS for expenditures incurred during the
same period as the Account Identification number's FY reporting period.




Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)           12
31 USC §1502 (a) provides, in part that, "The balance of an appropriation or fund limited
for obligation to a definite period is available only for payment of expenses properly
incurred during the period of availability…. However, the appropriation or fund is not
available for expenditure for a period beyond the period otherwise authorized by law."

The State determines daily whether a cash draw is needed by reviewing the State FY
total revenue and expenditure amounts for KS-DDS. However, the State does not
identify the revenue and expenditure amounts by FY, and expenditures may encompass
more than one FY reporting period. If total expenditures exceed total revenue, a cash
draw is made. The draw is generally made from the oldest FY reporting period that has
funds still available, even though it has not been determined whether the expenditures
relate to that or a subsequent period. Therefore, the State's records did not reflect the
actual beginning or ending cash balances of Federal funds for each FY reporting period,
nor did the records accurately show when Federal funds authorized for a FY reporting
period were fully expended.

We reviewed cash draws reported in ASAP for FY reporting periods 1998 through 2000
and found the State drew funds in excess of expenditures during FYs 1998 and 2000 in
the amounts of $674,469 and $317,490, respectively. This occurred because the State
did not have procedures for determining and accounting for cash draws by FY reporting
period. To correct the excess draws, the State adjusts the cash draw amounts within
the ASAP system and the State’s accounting records at the close of each FY reporting
period. At the time of our audit, the State had adjusted the ASAP system and its
accounting records to correct the excess cash draws made during FYs 1998 and 2000.
However, the State’s procedures do not comply with Federal regulations and provide no
assurance that SSA’s appropriations are being properly used.

SEGREGATION OF DUTIES
The KS-DDS’ timekeeper maintains her own time and attendance records, and there is
no policy to prohibit this practice. Our review did not disclose any improprieties
resulting from the lack of segregation of duties in the timekeeping function. However,
this lack of controls results in an environment susceptible to fraud and abuse. The
General Accounting Office (GAO) Standards for Internal Controls in the Federal
Government state that “No one individual should control all key aspects of a transaction
or event.” The GAO standards further state that adequate separation of duties should
“…include separating the responsibilities for authorizing transactions, processing and
recording them, reviewing the transactions, and handling any related assets.” 11




11
     GAO Standards for Internal Controls in the Federal Government-AIMD-00-21.3.1 (November 1999).




Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)                      13
ACCESS CONTROLS
KS-DDS uses a WANG mini-computer system for case processing activities to include
processing consultative and medical examination work loads, travel authorizations, and
purchase orders using software developed by a contractor. KS-DDS accesses the
WANG computer system using computer workstations connected to SSA’s Intelligent
Workstation/Local Area Network (IWS/LAN). KS-DDS relies heavily on the personal
data of the disability claimants contained within the WANG computer system.

SSA’s Systems Security Handbook (SSH) and the DDS Security Document address the
access controls for computer systems. These documents state that DDS employees
are authorized access to only those functions needed to perform their jobs. The
documents also state that management should (1) control access to all manual and
automated claimant records, (2) ensure that only personnel requiring access to claimant
data on DDS systems receive that access, and (3) monitor personnel activity so
misconduct can be deterred and/or detected.12

We reviewed KS-DDS’ access controls and identified the following weaknesses.

·      Procedures for deactivating terminated employee’s computer access privileges were
       not always followed. We identified 5 SSA IWS/LAN user accounts and 15 DDS
       WANG user accounts for terminated employees that were not deleted. We also
       identified a DDS employee who had inappropriate access to one of the terminated
       employee’s IWS/LAN account. SSA policy requires the terminated employees’
       computer accounts be immediately deactivated.13

·      DDS employees are not required to change their passwords every 30 days. SSA
       policy requires passwords to be changed at least every 30 days.14

·      Six DDS employees had system administrator privileges beyond those required to
       perform their duties, and 18 were granted excessive IWS/LAN access privileges.
       SSA’s policy restricts user access to the minimum necessary to perform his or her
       job duties.15




12
  DDS, Security Document – II Roles and Responsibilities, SSA’s SSH, Chapter 10 – Systems Access
Security, SSA’s SSH, Chapter 12 – Audit Trail System.
13
     SSA’s SSH, Chapter 10 – Systems Access Security.
14
     Ibid.
15
     ibid.


Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)                   14
Weak access controls increase the risk that unauthorized users, or authorized users
making unauthorized transactions, can obtain access to the system. This, in turn,
increases the risk that data and/or programs could be altered, deleted, replaced, or
overwritten. Therefore, by improving the KS-DDS access controls, it would better
protect the confidentiality and integrity of disability claimant’s personal information.




Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)                15
                                            Conclusions and
                                           Recommendations
We concluded that costs claimed by the KS-DDS were overstated by $3,499,969 for the
period October 1998 through September 2000 because of (1) incorrect indirect cost
allocations, (2) excessive CE payments, (3) inappropriate non-SSA work cost charges,
and (4) inaccurate other nonpersonnel costs. We also found $2,174,768 was
overstated during the period October 2000 through March 2002 because of incorrect
indirect cost allocations. In addition, we identified payments of $1,106,542 reported on
the Form SSA-4513 in the incorrect FY. Furthermore, funds were not drawn in
accordance with Federal regulations, duties were not segregated in the timekeeping
function, and access controls needed to be strengthened.

We recommend that SSA instruct KS-DDS and KS-SRS to:

1. Refund $4,923,606 for indirect costs inappropriately charged to SSA from
   FYs 1998 through March 31, 2002.

2. Determine the proper amount of allocable IT costs in accordance with the CAP.

3. Amend the KS-SRS cost allocation plans for FYs 2001, 2002, and future years to
   reflect an equitable distribution of indirect costs to SSA.

4. Reclassify $1,106,542 of expenditures incorrectly reported on the Form SSA-4513s
   in the wrong FY.

5. Determine whether expenditures reported on the Form SSA-4513s for FYs 1998
   through 2002 were claimed in the proper FY and reclassify expenditures, as
   appropriate.

6. Establish procedures for reporting expenditures in the correct FY.

7. Refund $591,340 for CE costs that exceed the highest rate allowable by Federal or
   other agencies in the State of Kansas.

8. Determine the extent to which CE costs reported on the Form SSA-4513s for
   FYs 2001 and 2002 exceed the highest rate allowable by Federal or other agencies
   in the State of Kansas and reduce the reported obligations as appropriate.

9. Limit future CE payments to the highest rate allowable by Federal or other agencies
   in the State of Kansas, clarifying on a national level, by regulation or otherwise, that
   20 CFR 404.1624 and 416.1024 do not permit a State DDS parent agency to set
   DDS CE fees in excess of the highest rate allowable by Federal or other agencies in
   the State.


Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)            16
10. Refund $142,140 for non-SSA costs inappropriately charged to SSA.

11. Calculate non-SSA costs for FYs 2001 and 2002 in accordance with the MOU and
    adjust the obligations reported on the Form SSA-4513s for any non-SSA costs
    charged to SSA.

12. Calculate future non-SSA costs in accordance with the terms of the MOU.

13. Refund $15,134 for unallowable communications costs charged to SSA during
    FYs 1998 through 2000.

14. Review the propriety of all FY 1998 through 2000 communication-related payments
    and refund any unallowable costs to SSA.

15. Develop procedures to review the propriety of communication costs charged to the
    KS-DDS by other State agencies and private communication companies and ensure
    that unallowable costs are not claimed for SSA-reimbursement.

16. Refund $2,517 for the unallowable utility costs charged to SSA during FY 1998.

17. Limit payments for utility costs to the costs associated with KS-DDS’ office space.

18. Establish cash draw procedures that associate FY reporting period cash draws with
    the same FY expenditures.

19. Establish an alternate timekeeper to ensure that the primary timekeeper does not
    maintain her own time and leave records.

20. Improve computer access controls by (1) immediately deactivating computer access
    privileges for terminated employees, (2) requiring employees to change passwords
    every 30 days, and (3) limiting employees’ system access to the minimum necessary
    to perform his or her job duties.


AGENCY COMMENTS
In commenting on the draft report, SSA did not fully agree with our recommendations
related to the incorrect reporting FY expenditures. SSA believes the State correctly
reported the payment of rent and other service agreements and purchases based on
the terms of the contract/agreement.

In addition, SSA did not agree with our recommendations related to CE costs that
exceeded the highest rate allowable by Federal or other agencies in the State of
Kansas. SSA believes that KS-DDS and KS-SRS are separate agencies, and the
KS-DDS’ use of the KS-SRS fee schedule for CE payment is in accordance with


Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)           17
Federal regulations. However, SSA stated the KS-DDS changed its policy and no
longer uses the KS-SRS fee schedule for CE payment.

See Appendix E for the full text of SSA’s comments to our report, including the State’s
response.

OIG RESPONSE
The KS-DDS’s policy of paying rent and other contractual expenditures at the beginning
of the State FY instead of the beginning of the Federal FY results in some costs related
to one fiscal year being claimed for reimbursement in another FY. This policy violates
section 1502(a) of Title 31, United States Code, which provides, in part, that “…the
balance of an appropriation or fund limited for obligation to a definite period is available
only for payment of expenses properly incurred during the period of availability….
However, the appropriation or fund is not available for expenditure for a period beyond
the period otherwise authorized by law.” Unless the KS-DDS establishes procedures
that allow for reporting expenditures in the correct FY, as recommended in our report, it
will continue to violate this Federal regulation.

We do not agree with SSA’s position that KS-SRS and KS-DDS are separate agencies
for the purpose of establishing CE rates of payment. As stated in our report, our
research of the Kansas statutes did not show the KS-DDS as having separate authority
from KS-SRS. In fact, our review of various KS-SRS budget and organizational
documents shows that KS-DDS is a subdivision of KS-SRS, not a separate agency. We
continue to believe that regulations adopted by SSA are violated when a DDS parent
agency sets rates higher than rates paid by Federal or other State agencies. We
reaffirm our position that 20 CFR 404.1624 and 416.1024 do not permit a State DDS
parent agency to set DDS CE fees in excess of the highest rate paid by Federal or other
agencies in the State. As noted in our report, the rates established by KS-SRS are
used primarily by the KS-DDS. We leave to the Agency’s discretion the waiver of
overpayments related to the excessive CE fees.




Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)             18
                                      Appendices




Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)
                                                                          Appendix A

SAMPLING METHODOLOGY
Our sampling methodology encompassed the four general areas of costs as reported on
Form SSA-4513: (1) personnel, (2) medical, (3) indirect, and (4) all other non-personnel
costs. We obtained computerized data from Kansas Department of Social and
Rehabilitation Services (KS-SRS) and Kansas Disability Determination Services
(KS-DDS) for Fiscal Years (FY) 1998 through 2000 for use in statistical sampling. In
addition, we obtained the electronic files SRS used to calculate indirect costs claimed for
FY 1998 through the second quarter of FY 2002. After selecting and reviewing randomly
selected samples, we did not identify errors we felt warranted audit projection.

Personnel Costs

We judgmentally sampled 15 employees and contractors from 2 randomly selected pay
periods in FY 2000. We tested the payroll records to ensure individuals were paid
correctly and payroll was adequately documented.

Medical Costs

We sampled 300 items (100 items from each FY) using a stratified random sample. We
stratified medical costs into Medical Evidence of Record and Consultative Examinations
(CE), selecting more CE invoices because CE costs represented 76 percent of all medical
costs. Our review identified CEs purchased for more than the allowable amount. As a
result, we expanded our sample to include a 100-percent review of CEs and reported the
actual amount KS-DDS paid for CEs above the allowable amount.

Indirect Costs

We conducted a 100-percent review of indirect cost categories and methods used to
allocate those costs for reimbursement purposes. Our objective was to ensure the Social
Security Administration reimbursed KS-DDS in compliance with the State Cost Allocation
Plan (CAP). In each FY, we judgmentally sampled various expenditure items used to
allocate the indirect costs. We identified noncompliance with the CAP and reported the
actual indirect costs determined to be unallowable.




Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)            A-1
All Other Non-personnel Costs

We selected a stratified random sample of 312 items (104 expenditures from each FY) of
All Other Non-personnel costs. We stratified All Other Non-personnel costs into
eight cost categories: (1) Applicant Travel, (2) Staff Travel, (3) Communications,
(4) Equipment, (5) Electronic Data Processing/Word Processing, (6) Contracting Out,
(7) Miscellaneous, and (8) Occupancy. We selected a stratified random sample of
100 items from each FY based on the percentage of costs in each category (excluding
occupancy) to total costs. We also selected a judgmental sample of four occupancy
expenditures from each FY for the Occupancy category. Our review of Occupancy
identified excessive utility costs being charged to KS-DDS. As a result, we expanded our
review to include all utility costs through March 1998. We identified unallowable
Communication costs, and we reported the actual amount of unallowable costs identified.




Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)         A-2
                                                                                            Appendix B

KANSAS DISABILITY DETERMINATION
SERVICES REPORTED VERSUS ALLOWED
OBLIGATIONS
Federal Fiscal Year (FY) 1998
                                                            Disbursements
                               Personnel      Medical           Indirect     All Other       Total

As Reported by the Kansas       $5,398,590    $2,821,459        $1,490,069    $2,210,899    $11,921,017
Disability Determination
Services (KS-DDS)

Audit Adjustments:
 Unallowable Cost                               (167,043)        (896,907)      (11,315)     (1,075,265)
 Non-Social Security                 7,285         16,266          (6,875)         3,033          19,709
 Administration (SSA) Work

Total Adjustments                    7,285      (150,777)        (903,782)        (8,282)    (1,055,556)

Allowed as a Result of Audit    $5,405,875    $2,670,682         $586,287     $2,202,617    $10,865,461


         FY 1999
                                                            Disbursements
                               Personnel      Medical           Indirect     All Other       Total

As Reported by the KS-DDS       $5,858,877    $3,473,740        $1,524,981    $1,850,369    $12,707,967

Audit Adjustments:
 Unallowable Cost                               (250,493)        (887,422)       (4,488)    ($1,142,403)
 Non-SSA Work                      (56,908)        13,210          (8,900)      (20,077)        (72,675)

Total Adjustments                  (56,908)     (237,283)        (896,322)      (24,565)     (1,215,078)

Allowed as a Result of Audit    $5,801,969    $3,236,457         $628,659     $1,825,804    $11,492,889


         FY 2000
                                                            Disbursements
                               Personnel      Medical           Indirect     All Other       Total

As Reported by the KS-DDS       $5,714,508    $3,341,961        $1,457,011    $1,809,193    $12,322,673

Audit Adjustments:
 Unallowable Cost                               (173,804)        (964,509)       (1,848)     (1,140,161)
 Non-SSA Work                      (59,034)       (6,381)          (5,088)      (18,671)        (89,174)

Total Adjustments                  (59,034)     (180,185)        (969,597)      (20,519)     (1,229,335)

Allowed as a Result of Audit    $5,655,474    $3,161,776         $487,414     $1,788,674    $11,093,338




Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)
                                                                           Appendix C

KANSAS DISABILITY DETERMINATION SERVICES
INDIRECT COSTS
Kansas Rehabilitation Services (KRS) Central Office Costs

KRS Central Office costs are allocated based on Full-Time Equivalents (FTE).
However, we found that KRS field offices and the Client Assistance Program were
excluded from the allocation. We recalculated the allocation of the KRS Central Office
costs including KRS field office and Client Assistance Program FTEs as summarized
below.

                                        Fiscal Year (FY)
                    1998         1999           2000         2001         2002         Total
 Original
 Allocation       $1,091,729   $1,050,679    $1,137,692    $1,361,515   $1,035,582   $5,677,197
 New Allocation      296,679      294,483       302,719       300,804      180,194   $1,374,879
 Unallowable
 Cost charged
 to Kansas         $795,050     $756,196      $834,973     $1,060,711    $855,388    $4,302,318
 Disability
 Determination
 Services (KS-
 DDS)

State Medical Institutions

The Cost Allocation Plan (CAP) states that Administrative Division costs should be
allocated based on FTEs. We found that the Kansas Department of Social and
Rehabilitation Services allocated the Administrative Division Costs based on all FTEs
except for the 2,499 FTEs assigned to the State medical institutions. We recalculated
the allocation of the Administrative Division costs including the FTEs assigned to the
State medical institutions. The results are summarized below.

                                              FY
                    1998        1999          2000           2001        2002         Total
 Original
 Allocation       $244,747      $313,153      $303,382      $381,366     $212,059    $1,454,707
 New Allocation    142,890       181,927       173,846       214,432      120,324       833,419
 Unallowable
 Cost charged
 to KS-DDS        $101,857      $131,226      $129,536      $166,934      $91,735     $621,288




Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)                    C-1
Information Technology

According to the approved CAP, Information Technology (IT) costs were to be allocated
based on a 100-percent time study. The following details the IT expenses that were
allocated to KRS Central Office costs, which in turn were allocated in part to the KS-
DDS. We could not calculate the IT costs that should have been allocated to KS-DDS
because 100 percent time study information did not exist. Therefore, we cannot
express an opinion on the acceptability of $435,052 in IT expenses allocated to KS-
DDS from FY 1998 through 2 quarters of FY 2002, or October 1997 through
March 2002.

                                          Fiscal Year
                       1998        1999          2000      2001        2002     Total
 IT Costs Allocated
 to KS-DDS            $54,300   $114,339      $114,769   $93,651      $57,993   $435,052




Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)                C-2
                                                                                  Appendix D

KANSAS DISABILITY DETERMINATION SERVICES
CONSULTATIVE EXAMINATION COSTS
Fiscal Year 1998
                                 Highest Number                         Amount
 CPT      Highest Allowable Fee Allowable    of             Amount      KS-DDS     Unallowable
 Code           Schedule           Fee     Exams           Allowable      Paid       Costs
94010     Workers’ Compensation     $61.00     892          $54,412.00 $107,574.93   $53,162.93
72100     Workers’ Compensation      74.00     447            33,078.00  58,612.79    25,534.79
73560     Workers’ Compensation      54.00     379            20,466.00  39,554.12    19,088.12
71010     Workers’ Compensation      43.00     248            10,664.00  21,353.63    10,689.63
95851     Workers’ Compensation      41.00     192             7,872.00  14,162.74      6,290.74
92507     Workers’ Compensation      33.00      91             3,003.00   9,218.70      6,215.70
80054     Medicare Rate              12.48      86             1,073.28   5,701.15      4,627.87
73510     Workers’ Compensation      70.00     111             7,770.00  12,100.42      4,330.42
92082     Workers’ Compensation      55.00     205            11,275.00  15,272.40      3,997.40
71020     Workers’ Compensation      55.00      82             4,510.00   8,318.51      3,808.51
73600     Workers’ Compensation      50.00      84             4,200.00   7,821.93      3,621.93
73030     Workers’ Compensation      59.00      72             4,248.00   7,615.70      3,367.70
94720     Workers’ Compensation      61.00      59             3,599.00   6,356.58      2,757.58
82803     Workers’ Compensation      53.00      49             2,597.00   4,992.79      2,395.79
73120     Workers’ Compensation      45.00      24             1,080.00   2,761.23      1,681.23
80012     Workers’ Compensation      25.00      35               875.00   2,510.03      1,635.03
93000     Workers’ Compensation      52.00      39             2,028.00   3,590.33      1,562.33
73620     Workers’ Compensation      50.00      38             1,900.00   3,164.35      1,264.35
      1
92004     Workers’ Compensation      75.00      95             7,125.00   8,363.25      1,238.25
93922     Workers’ Compensation     128.00       7               896.00   1,953.78      1,057.78
72110     Workers’ Compensation     101.00      27             2,727.00   3,625.06        898.06
72040     Workers’ Compensation      65.00      21             1,365.00   2,143.53        778.53
80019     Workers’ Compensation      41.00      17               697.00   1,466.94        769.94
73100     Workers’ Compensation      48.00      20               960.00   1,430.06        470.06
73070     Workers’ Compensation      48.00       7               336.00     699.95        363.95
76062     Workers’ Compensation     130.00       1               130.00     468.00        338.00
72070     Workers’ Compensation      73.00       5               365.00     679.98        314.98
73590     Workers’ Compensation      57.00      11               627.00     915.88        288.88
73564     Workers’ Compensation     100.00       1               100.00     370.80        270.80
85031     Workers’ Compensation      19.00      11               209.00     477.54        268.54
36415     Workers’ Compensation      10.00      41               410.00     675.48        265.48
80016     Workers’ Compensation      37.00       2                74.00     318.60        244.60
85651     Workers’ Compensation      13.00      19               247.00     479.52        232.52
80164     Workers’ Compensation      49.00      11               539.00     740.58        201.58
80156     Workers’ Compensation      42.00      13               546.00     740.42       $194.42

1
    The actual code used by the Kansas Disability Determination Services (KS-DDS) is Ophthalmological.


Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)                         D-1
                               Highest Number                      Amount
 CPT    Highest Allowable Fee Allowable    of         Amount       KS-DDS     Unallowable
 Code         Schedule           Fee     Exams       Allowable      Paid        Costs
80185   Workers’ Compensation     $42.00       9         $378.00     $562.57        $184.57
90830   Medicare Rate             411.66       1          411.66      588.60         176.94
86038   Workers’ Compensation      40.00       5          200.00      355.67         155.67
85014   Workers’ Compensation      10.00      18          180.00      332.22         152.22
92585   Workers’ Compensation     166.00       1          166.00      315.00         149.00
72052   Workers’ Compensation     103.00       4          412.00      559.80         147.80
72170   Workers’ Compensation      56.00       4          224.00      370.84         146.84
92557   Workers’ Compensation      72.00       1           72.00      217.80         145.80
80058   Workers’ Compensation      36.00       2           72.00      216.14         144.14
80299   Medicare Rate              18.92       3           56.76      179.20         122.44
73110   Workers’ Compensation      57.00       3          171.00      285.41         114.41
94375   Workers’ Compensation      58.00       3          174.00      287.42         113.42
71100   Workers’ Compensation      62.00       1           62.00      158.40          96.40
73562   Workers’ Compensation      66.00       3          198.00      290.24          92.24
72090   Workers’ Compensation      88.00       3          264.00      350.55          86.55
97750   Workers’ Compensation      33.00       1           33.00      115.20          82.20
86430   Workers’ Compensation      21.00       5          105.00      182.76          77.76
73630   Workers’ Compensation      59.00       2          118.00      195.07          77.07
80184   Workers’ Compensation      47.00       4          188.00      256.37          68.37
82250   Workers’ Compensation      15.00       5           75.00      130.52          55.52
72200   Workers’ Compensation      61.00       1           61.00      115.20          54.20
85021   Workers’ Compensation      15.00       4           60.00      107.05          47.05
80061   Workers’ Compensation      51.00       1           51.00       94.94          43.94
76020   Workers’ Compensation      63.00       1           63.00      103.50          40.50
73060   Workers’ Compensation      55.00       1           55.00       91.75          36.75
82565   Workers’ Compensation      15.00       5           75.00      105.75          30.75
83690   Workers’ Compensation      27.00       1           27.00       46.75          19.75
86140   Workers’ Compensation      22.00       1           22.00       40.81          18.81
82150   Workers’ Compensation      22.00       1           22.00       40.54          18.54
81000   Workers’ Compensation      12.00       1           12.00       29.70          17.70
82977   Workers’ Compensation      27.00       1           27.00       43.28          16.28
80168   Workers’ Compensation      39.00       1           39.00       54.94          15.94
49400   Workers’ Compensation     264.00       1          264.00      279.00          15.00
84478   Workers’ Compensation      16.00       1           16.00       28.94          12.94
85610   Workers’ Compensation      16.00       1           16.00       27.00          11.00
93015   Workers’ Compensation     206.00       1          206.00      214.18           8.18
86255   Workers’ Compensation      51.00       1           51.00       57.60           6.60
82947   Workers’ Compensation      13.00       1           13.00       17.46           4.46
93010   Workers’ Compensation      24.00       1           24.00       27.90           3.90
82550   Workers’ Compensation      22.00       1           22.00       24.72           2.72
                                                                        Total  $167,042.79




Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)              D-2
KANSAS DISABILITY DETERMINATION SERVICES
CONSULTATIVE EXAMINATION COSTS
Fiscal Year 1999
                                  Highest Number                   Amount
 CPT       Highest Allowable Fee Allowable    of       Amount      KS-DDS     Unallowable
 Code            Schedule           Fee     Exams     Allowable      Paid       Costs
94010      Workers’ Compensation     $61.00     991    $60,451.00 $123,808.74   $63,357.74
72100      Workers’ Compensation      74.00     556      41,144.00  77,388.36    36,244.36
73560      Workers’ Compensation      54.00     434      23,436.00  47,922.78    24,486.78
97750      Workers’ Compensation      33.00     120       3,960.00  25,442.61    21,482.61
95851      Workers’ Compensation      41.00     327      13,407.00  31,038.34    17,631.34
71010      Workers’ Compensation      43.00     411      17,673.00  33,798.89    16,125.89
92507      Medicare Rate              36.28     195       7,074.97  19,311.72    12,236.75
73510      Workers’ Compensation      70.00     153      10,710.00  17,737.80      7,027.80
80054      Medicare Rate              14.61     166       2,425.26   9,431.84      7,006.58
92082      Workers’ Compensation      55.00     218      11,990.00  16,930.24      4,940.24
73030      Workers’ Compensation      59.00      87       5,133.00   9,827.93      4,694.93
73600      Workers’ Compensation      50.00      78       3,900.00   7,600.59      3,700.59
73120      Workers’ Compensation      45.00      52       2,340.00   5,784.91      3,444.91
94720      Workers’ Compensation      61.00      68       4,148.00   7,500.55      3,352.55
71020      Workers’ Compensation      55.00      85       4,675.00   7,740.14      3,065.14
      2
92004      Workers’ Compensation      75.00     133       9,975.00  12,329.75      2,354.75
82803      Workers’ Compensation      53.00      35       1,855.00   3,622.58      1,767.58
72040      Workers’ Compensation      65.00      28       1,820.00   3,292.41      1,472.41
73100      Workers’ Compensation      48.00      27       1,296.00   2,730.92      1,434.92
93922      Workers’ Compensation     128.00      17       2,176.00   3,598.99      1,422.99
73620      Workers’ Compensation      50.00      36       1,800.00   3,152.42      1,352.42
93000      Workers’ Compensation      52.00      23       1,196.00   2,428.29      1,232.29
72110      Workers’ Compensation     101.00      17       1,717.00   2,940.30      1,223.30
92557      Workers’ Compensation      72.00       5         360.00   1,125.00        765.00
73070      Workers’ Compensation      48.00      14         672.00   1,371.16        699.16
85651      Workers’ Compensation      13.00      50         650.00   1,338.86        688.86
72070      Workers’ Compensation      73.00       9         657.00   1,282.10        625.10
95904      Workers’ Compensation      58.00       3         174.00     751.05        577.05
72090      Workers’ Compensation      88.00       6         528.00     990.18        462.18
72170      Workers’ Compensation      56.00      11         616.00     993.78        377.78
93307      Workers’ Compensation     402.00       1         402.00     771.96        369.96
73630      Workers’ Compensation      59.00       5         295.00     642.15        347.15
73562      Workers’ Compensation      66.00       4         264.00     580.78        316.78
73110      Workers’ Compensation      57.00       8         456.00     770.22        314.22
72052      Workers’ Compensation     103.00       4         412.00     715.50        303.50
36415      Workers’ Compensation      10.00      55         550.00     846.25        296.25
80185      Workers’ Compensation      42.00      14         588.00     873.21        285.21


2
    Ibid


Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)              D-3
                               Highest Number                      Amount
 CPT    Highest Allowable Fee Allowable    of         Amount       KS-DDS     Unallowable
 Code         Schedule           Fee     Exams       Allowable      Paid        Costs
95819   Workers’ Compensation    $162.00       2         $324.00     $568.80        $244.80
93925   Workers’ Compensation     309.00       1          309.00      552.60         243.60
85031   Workers’ Compensation      19.00      10          190.00      413.66         223.66
80156   Workers’ Compensation      42.00       8          336.00      532.59         196.59
80299   Medicare Rate              18.92       4           75.68      261.45         185.77
86430   Workers’ Compensation      21.00      12          252.00      416.76         164.76
92568   Workers’ Compensation      30.00       4          120.00      270.00         150.00
73550   Workers’ Compensation      61.00       2          122.00      271.80         149.80
82250   Workers’ Compensation      15.00       8          120.00      262.51         142.51
94375   Workers’ Compensation      58.00       4          232.00      363.69         131.69
95860   Workers’ Compensation     127.00       2          254.00      381.60         127.60
95903   Medicare Rate              43.97       1           43.97      165.60         121.63
92555   Workers’ Compensation      25.00       4          100.00      216.00         116.00
92567   Workers’ Compensation      30.00       9          270.00      380.70         110.70
80164   Workers’ Compensation      49.00       2           98.00      188.43          90.43
92582   Workers’ Compensation      32.00       2           64.00      152.70          88.70
86038   Workers’ Compensation      40.00       4          160.00      241.01          81.01
93015   Workers’ Compensation     206.00       2          412.00      480.15          68.15
92552   Workers’ Compensation      32.00       1           32.00       90.00          58.00
82565   Workers’ Compensation      15.00       2           30.00       87.79          57.79
92543   Workers’ Compensation      89.00       1           89.00      136.80          47.80
92579   Medicare Rate              27.16       1           27.16       71.10          43.94
85014   Workers’ Compensation      10.00       8           80.00      112.16          32.16
92556   Workers’ Compensation      54.00       1           54.00       81.00          27.00
73060   Workers’ Compensation      55.00       1           55.00       81.45          26.45
82947   Workers’ Compensation      13.00       3           39.00       64.26          25.26
82043   Workers’ Compensation      20.00       1           20.00       36.00          16.00
92587   Workers’ Compensation     107.00       3          321.00      332.10          11.10
85610   Workers’ Compensation      16.00       1           16.00       25.02           9.02
76020   Workers’ Compensation      63.00       1           63.00       71.10           8.10
80184   Workers’ Compensation      47.00       1           47.00       49.95           2.95
82040   Workers’ Compensation      18.00       1           18.00       20.47           2.47
94760   Workers’ Compensation      20.00       1           20.00       20.25           0.25
                                                                        Total  $250,492.76




Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)              D-4
KANSAS DISABILITY DETERMINATION SERVICES
CONSULTATIVE EXAMINATION COSTS
Fiscal Year 2000
                                  Highest Number                   Amount
 CPT       Highest Allowable Fee Allowable    of       Amount      KS-DDS     Unallowable
 Code            Schedule           Fee     Exams     Allowable      Paid       Costs
94010      Workers’ Compensation     $59.25     821    $48,644.25 $103,975.78   $55,331.53
97750      Workers’ Compensation      33.00     116       3,828.00  27,289.98    23,461.98
72100      Workers’ Compensation      73.00     337      24,601.00  46,091.84    21,490.84
71010      Workers’ Compensation      43.00    1008      43,344.00  56,909.01    13,565.01
73560      Workers’ Compensation      54.00     244      13,176.00  26,655.70    13,479.70
95851      Workers’ Compensation      27.75     101       2,802.75   7,849.65      5,046.90
73510      Workers’ Compensation      65.00      95       6,175.00  10,855.87      4,680.87
94720      Workers’ Compensation      60.75      82       4,981.50   9,403.72      4,422.22
80054      Workers’ Compensation      29.00     102       2,958.00   6,941.98      3,983.98
92082      Workers’ Compensation      54.75     179       9,800.25  13,511.72      3,711.47
73030      Workers’ Compensation      59.00      57       3,363.00   6,014.31      2,651.31
71020      Workers’ Compensation      55.00     181       9,955.00  12,497.81      2,542.81
93922      Workers’ Compensation     127.50      56       7,140.00   9,653.78      2,513.78
73600      Workers’ Compensation      50.00      49       2,450.00   4,770.84      2,320.84
73120      Workers’ Compensation      45.00      40       1,800.00   3,883.47      2,083.47
82803      Workers’ Compensation      53.00      20       1,060.00   2,325.11      1,265.11
72040      Workers’ Compensation      65.00      22       1,430.00   2,684.02      1,254.02
      3
92004      Workers’ Compensation      84.00     218      18,312.00  19,303.00        911.00
93000      Workers’ Compensation      51.75      20       1,035.00   1,982.53        947.53
73620      Workers’ Compensation      50.00      19         950.00   1,887.88        937.88
95819      Workers’ Compensation     162.00       4         648.00   1,292.61        644.61
95900      Workers’ Compensation      65.25       5         326.25     960.68        634.43
92557      Workers’ Compensation      72.00       6         432.00     948.90        516.90
73100      Workers’ Compensation      48.00      13         624.00   1,116.66        492.66
95860      Workers’ Compensation     126.75       3         380.25     822.20        441.95
95904      Workers’ Compensation      58.50       5         292.50     734.28        441.78
36415      Workers’ Compensation      10.00      46         460.00     746.10        286.10
85031      Workers’ Compensation      19.00      11         209.00     473.00        264.00
73070      Workers’ Compensation      48.00       6         288.00     545.91        257.91
95930      Workers’ Compensation      74.25       1          74.25     276.30        202.05
85651      Workers’ Compensation      12.00      16         192.00     381.48        189.48
80185      Workers’ Compensation      42.00       8         336.00     510.80        174.80
73550      Workers’ Compensation      61.00       3         183.00     354.72        171.72
92507      Medicare Rate              46.25       8         369.96     536.00        166.04
94375      Workers’ Compensation      58.50       2         117.00     268.00        151.00
73590      Workers’ Compensation      57.00       7         399.00     549.20        150.20
72090      Workers’ Compensation      88.00       3         264.00     397.30        133.30


3
    Ibid


Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)              D-5
                               Highest Number                      Amount
 CPT    Highest Allowable Fee Allowable    of         Amount       KS-DDS     Unallowable
 Code         Schedule           Fee     Exams       Allowable      Paid        Costs
76020   Workers’ Compensation     $63.00      3          $189.00     $318.27        $129.27
73630   Workers’ Compensation      58.00      2           116.00      245.00         129.00
92568   Workers’ Compensation      29.25      3            87.75      216.00         128.25
92543   Workers’ Compensation      21.75      1            21.75      147.74        $125.99
80156   Workers’ Compensation      42.00      6           252.00      377.68         125.68
72070   Workers’ Compensation      72.00      3           216.00      341.64         125.64
73562   Workers’ Compensation      63.00      2           126.00      244.80         118.80
80299   Medicare Rate              18.92      3            56.76      173.25         116.49
72110   Workers’ Compensation     101.00      1           101.00      201.55         100.55
92582   Workers’ Compensation      32.25      1            32.25      118.80          86.55
73060   Workers’ Compensation      55.00      2           110.00      178.65          68.65
73110   Workers’ Compensation      57.00      2           114.00      174.42          60.42
92567   Workers’ Compensation      30.00      4           120.00      180.00          60.00
80164   Workers’ Compensation      49.00      5           245.00      302.35          57.35
84132   Workers’ Compensation      14.00      1            14.00       49.95          35.95
86430   Workers’ Compensation      19.00      2            38.00       71.46          33.46
92555   Workers’ Compensation      24.75      1            24.75       57.60          32.85
85014   Workers’ Compensation       8.00      7            56.00       87.87          31.87
93350   Workers’ Compensation     154.50      1           154.50      184.23          29.73
72170   Workers’ Compensation      56.00      2           112.00      141.48          29.48
86038   Workers’ Compensation      40.00      2            80.00      108.18          28.18
82247   Medicare Rate               6.94      6            41.64       68.00          26.36
73610   Workers’ Compensation      58.00      1            58.00       81.90          23.90
82565   Workers’ Compensation      15.00      2            30.00       50.65          20.65
80184   Workers’ Compensation      47.00      2            94.00      109.30          15.30
81000   Workers’ Compensation      10.00      1            10.00       25.20          15.20
85018   Workers’ Compensation       8.00      1             8.00       21.50          13.50
92587   Workers’ Compensation     107.25      1           107.25      118.80          11.55
82040   Workers’ Compensation      18.00      1            18.00       28.80          10.80
82947   Workers’ Compensation      13.00      2            26.00       30.60           4.60
72052   Workers’ Compensation     103.00      1           103.00      106.38           3.38
82150   Workers’ Compensation      22.00      1            22.00       23.85           1.85
92579   Medicare Rate              28.36      1            28.36       30.00           1.64
                                                                        Total  $173,804.06




Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)              D-6
                                                                          Appendix E

AGENCY COMMENTS




Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)
E-1
E-2
E-3
E-4
E-5
E-6
E-7
E-8
E-9
E-10
E-11
E-12
E-13
                                                                          Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
       William Fernandez, Director, Western Audit Division, (510) 970-1739

       Mark Bailey, Deputy Director, (816) 936-5591

Acknowledgments
In addition to those named above:

       Shannon Agee, Senior Auditor

       Kenneth Bennett, Senior Auditor

       Sherry Colwell, Senior Auditor

       Richard Reed, Auditor

       Kim Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-07-02-22003.




Audit of the Administrative Costs Claimed by the Kansas DDS (A-07-02-22003)
                          DISTRIBUTION SCHEDULE

                                                                          No. of
                                                                         Copies

Commissioner of Social Security                                               1
Management Analysis and Audit Program Support Staff, OFAM                    10
Inspector General                                                             1
Assistant Inspector General for Investigations                                1
Assistant Inspector General for Executive Operations                          3
Assistant Inspector General for Audit                                         1
Deputy Assistant Inspector General for Audit                                  1
 Director, Data Analysis and Technology Audit Division                        1
 Director, Financial Audit Division                                           1
 Director, Southern Audit Division                                            1
 Director, Western Audit Division                                             1
 Director, Northern Audit Division                                            1
 Director, General Management Audit Division                                  1
Team Leaders                                                                 25
Income Maintenance Branch, Office of Management and Budget                    1
Chairman, Committee on Ways and Means                                         1
Ranking Minority Member, Committee on Ways and Means                          1
Chief of Staff, Committee on Ways and Means                                   1
Chairman, Subcommittee on Social Security                                     2
Ranking Minority Member, Subcommittee on Social Security                      1
Majority Staff Director, Subcommittee on Social Security                      2
Minority Staff Director, Subcommittee on Social Security                      2
Chairman, Subcommittee on Human Resources                                     1
Ranking Minority Member, Subcommittee on Human Resources                      1
Chairman, Committee on Budget, House of Representatives                       1
Ranking Minority Member, Committee on Budget, House of Representatives        1
Chairman, Committee on Government Reform and Oversight                        1
Ranking Minority Member, Committee on Government Reform and Oversight         1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        96
                   Overview of the Office of the Inspector General

                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
OEO supports the OIG by providing information resource management; systems security; and
the coordination of budget, procurement, telecommunications, facilities and equipment, and
human resources. In addition, this office is the focal point for the OIG’s strategic planning
function and the development and implementation of performance measures required by the
Government Performance and Results Act. OEO is also responsible for performing internal
reviews to ensure that OIG offices nationwide hold themselves to the same rigorous standards
that we expect from SSA, as well as conducting investigations of OIG employees, when
necessary. Finally, OEO administers OIG’s public affairs, media, and interagency activities,
coordinates responses to Congressional requests for information, and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.


                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
